WAIVER

SUPREME COURT OF THE UNITED STATES

No. 20-1217

Daniel Kristof Lak California, et al.
(Petitioner) Ve (Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© [am filing this waiver on behalf of all respondents.

© I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):
The County of Orange

Please check the appropriate box:

© lam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First 3).

\

  
 
   
 

Signature:

Date: 3/16/21

(Type or print) Name /g/ William L. Haluck

© mr. O Ms. O Mrs. O Miss
Firm Koeller, Nebeker, Carlson &I Haluck, LLP :
Address 3 Park Plaza, Ste. 1500 ee
City & State Irvine, CA Zip 92614 -
Phone (949) 864-3436 Email haluck@knchlaw.com :

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Daniel Lak, P. O. Box 321, San Juan Capistrano, CA 92693
Shirley Sullinger, Esq., 300 South Spring Street, Ste. 1702, Los Angeles, CA 90013
